20=5 oJQ
USCA # 19-973

ORIQII

USDC # 19cv943

UNITED STATES SUPREME COURT

FILED
JUL 1 b 2020

-from the United States Court Of Appeals-

OFFICE OFTRE CLERK
<?i iPRFMF. COURT. U.S.

for the second Circuit

JOHN S. KAMINSKI-PETITIONER/APPELLANT
-againstSCOTT SEMPLE,COMMISSIUONER DEPT. OF CORRECTIONS
GEORGE JEPSEN, ATTORNEY GENERAL,STATE OF CONN.
ATTORNEY WALTER BANSLEYIV, CONTRACTOR/INMATE LEGAL ASSIST.

Note: Counsel For SEMPLE and JEPSEN is States Atty.TAMARA GROSSO
BANSLEY Is Self-Represented

ON A PETITION FOR A WRIT OF CERTERIORI

FRom i* Dismissal/Mandate IN An Appeal In The 2d Circuit/USCA
IS S Civil Rights Matter (42 USC 1983) Complaint 19cv943

Brief Submitted By PETITIONER/APPELLANT:
John S. Kaminski/PRO SE
MacDougall Correction Institution
1153 East Street South, Suffield, CT 06080

Cover Page

-FOREWORDAlthough we have adopted an adversarial system of justice, the
prosecution and, in this case, the opposing counsel (AAG BARRY)
and the courts themselves are more than ordinary litigants and,
the clerks and judges are not simply automatons whose only
purpose is to insure that technical rules are adhered to. All
are charged with of insuring that "justice" in the broadest
sense of the term is practiced and achieved, in their trusted
positions as Officers Of The Court, and that Fundamental
Fairness is insured, at all times.
The interest of the state;its courts; and the Officers of these
courts cannot be that it shall win a case (something easily
achieved against PRO SE opposing counsel) but that Justice shall
be done through an unbiased review of the facts that are
presented-as unvarnished as they may be.
As interpreted by the PETITIONER from STATE vs. DAY 223 Conn
813 (1995).

i
\

TABLE OF CONTENTS
FOREWARD................................................................................
TABLE OF CONTENTS.............................................................
TABLE OF AUTHORITIES......................................................
QUESTIONS PRESENTED........................................................
PRELIMINARY STATEMENT I..................................... ..........
PRELIMINARY STATEMENT II........................................... *
STATEMENT OF THE CASE....................................................
STATEMENT OF SUBJECT MATTER JURISDICTION I & 2

I±
±1
iii
-1-

4
.,•9
9
XI

CONDITIONS OF CONFINEMENT............................................
SPECIAL MASTER TO PROTECT THE CLASS......................

13.

FUNDAMENTAL FAIRNESS......................................................
PERSONAL STANDING/REQUEST CLASS STANDING...........

16.

14

17

1 ft
STATEMENT OF THE CASE II..............................................
2>0
DELIBERATE OBSTRUCTION OF DUE PROCESS..................
CRUEL & UNUSUAL PUNISHMENT (First Person Affidavit)..^!

REASONS FOR GRANTING THE WRIT OF CERTERIORI

33

CLOSING ARGUMENT/CONCLUSION.................................

37

LIST OF APPENDIXES/EXHIBITS

Fo

O'jj

ii

}

d P<a

APPENDIX "A"
01/15/19
04/02/19
05/07/19

1983 Original Complaint 3:19cv143
District Court Dismissal
Denial Motion For Reconsideration

APPENDIX "B"
05/09/19

APPELLANT BRIEF

19-973

08/19/19
09/05/19

Addendum To Brief
Letter To Clerk (BANSLEY)
APPELLANTS Response Letter To Clerk

09/02/19

Letter To Clerk (ASA GROSSO)

09/11/19
01/17/20
03/26/20
03/19/20

APPELLANTS Response Letter To Clerk
Summary Dismissal
APPELLANT Motion Of Request "En Banc" Hearing
APPELLANTS Addendum To En Banc Hearing Request
En Banch Hearing REquest Denial

04/02/20

MANDATE Issued

APPENDIX "C"
Conn. Gen Statute 4-165 (Immunity)
Conn.Gen Statute 5-141 (Indemriification/State Employees)
Conn. Gen Statute 18-81 (Commissioner Duties & Respon.)
APPENDIX "D"
Copy Of INMATE LEGAL ASSISTANCE CONTRACT (BANSLEY)
APPENDIX "E"
04/25/20
06/29/1 5
10/31/07

Motion Requesting Ext. Of Time To File WRIT
Approved To 08/17/20 (60-Days)
BANSLEY Introduction Letter Re; Legal Aid Program

Fm W-675

DOC Directive 1.12 Legal Counsel Of Staff
State Report Form Protective Svcs.For Elderly
State Police Guideline/Pocedures REporting Abuse

11/18/15

Inmate Legal Assistance Directive 10.3

TABLE OF AUTHORITIES
CONSTITUTIONAL PROVISIONS
42 USC 1997 Civil Rights Of Institutionalized Persons
42 USC 1983 Civil Rights Violations
8th Amendment U.S.C. Cruel & Unusual Punishment
11th Amendment U.S.C. Immunity
14th Amendment U.S.C. Due Process/Obstr of Justice
STATE PROVISIONS
Ct. Gen. Statute 5-141 Indemnity
Ct. Gen. Statute 4-165 Immunity
Ct. Ge. Statute 18-81 Duties/Resp. Of DOC Comm.
CITED CASES
FEDERAL
Hafer vs. Melo 502 US, 2d 301, S.Ct 358 (1991
Lewis Vs. Casey 518 US 343,349 (1996)

Kirby vs Siegelman 195 F.3d 1285, 1291-92 11th (1997)
Wolff t 418 US, 555-56 94 S.Ct 2974-75
Tye vs. Butkiewicus 3:13 cv 747
Hankins vs. Fennel 964 F.2d 653 (USCA)
Garrity vs. Sununu 752 F.2d 727-728,1st Circ.
Estelle vs. Gamble 429 US 97,S.Ct 104-105 (1976)
STATE
State vs. Day

223 Conn 813 (1995)

iii

LIST OF COUNSEL
PETITIONER
John S. Kaminski-PRO SE
#241124
1153 East Street South
Suffield, Connecticut 06080
DEFENDANT #1
Commissioner Scott Semple
C/O Counsel
States Atty. Tamara Grosso
300 Corporate Place
Rocky Hill, CT 06067
DEFENDANT #2
Attorney General George Jepsen (Former)
- C/O Counsel
States Atty.Tamara Grosso
300 Corporate Place
•’ Rocky Hill, CT 06067
DEFENDANT #3
Attorney Walter Bansley IV-Self Represented
265 Orange Street
New Haven, CT 06510

QUESTIONS PRESENTED

1. Are the defendants-SEMPLE as former Commissioner of D.O.C.
(now COOK) immune from injunctive and/or declaratory civil
suits, in the form of 42 USC 1983, and JEPSEN, former Attorney
General (now TONG) also immune in the same matter, blanketed
by their ofice, according to the 11th Amendment immunity, when
they completely, as a documented pattern ignore complaints of
Cruel and Unusual Punishment of a prisoner, a WARD OF THE STATE,
which has resulted in permanent debilitating injuries to that
prisoner.

2. If, as it is in this complaint, the defendants SEMPLE (now
COOK), JEPSEN (now TONG) granted "full" authority to insure
that Legal Assistance is provided to inmates and that DUE PROCESS
is assured, by written contract, in which "both" divest them­
selves of not only their "authority" but their "responsibility",
actually washing their hands of. that inherent responsibilitydid they, in fact make the contractor, Defendant BANSLEY a proxy"
state actor subject to the authority of this court under 42USC
1 983.

3. Since, according to the PETITIONERS "first person" affidavit
on pages

-34

in this petition, are the defendants guilty

of being accessories to Assault & Battery and Medical Assaultafter the fact.

4. Based on the foundation of LEWIS vs. CASEY and the "lesser"

c

1

impetus in that case, that justified the appointment of a
Special Master,does this complaint, as written rise to that
level, to justify a Special Master to investigate the short­
comings in this complaint, to make recommendations on how to
remedy the Obstruction To Court Access and DUE PROCESS.

5. Does this Petition rise to the standard of a CLASS ACTION
even though the PETITIONER, according to the policies of the
D.O.C. is unable to gather other harmed parties, identically
situated and equally harmed by the contract, gifted to BANSLEY,
to provide Legal Assistance, as he would be targeted as an organ­
izer for disciplinary actions.

6. Regardless of this courts actions, is this court empowered
to order that this WRIT is remanded back to the U.S. District
Court in New Haven, CT. for appointment of "individual" counsel
to conduct an overview of his medical history and records,
ioncluding a unbiased medical expert evaluation so as to allow,
if deemed appropriate, a reset of the tolling clock that would
allow counsel appointment to bring a proper civil complaint,
in New Haven District Court, based on "newly discovered evid­
ence, as uncovered by the medical expert after review.

7. Is Conn. Gen Statute 4-165 as it relates to and is accepted
by the state, regarding immunity of virtually "all" state
employees, unconstitutional.

8. How does the existence of the determinations in HANKINS vs
FENNEL, 11th Circuit, Missouri, as it addresses representation

by the Ct. Attorney Generals office affect CGS 4-165 and the
constitutionality of 11th Amendment claims

in Connecticut.

ADDITIONAL INFORMATION
The current Commissioner of the D.O.C. ROLLIN COOK assumed his
office in January 2019. He is resigning his position, effective
June 30, 2020, and returning to the State Of Utah. He has stated
his reasons for this resignation as "personal". His replace­
ment will be the "3d" D.O.C. Commissioner in (2) years.

3

PRELIMINARY STATEMENT
\.This is a petition of regress of a practice of the defendants
listed in this matter, of ignoring the concept of Fundamental
/

Fairness; Obstrcting Access To The Courts; Interfering With
Due Process, compounded by an unsupportable (but convenient)
interpretation of the meaning of access to the courts and the
protection of Wards Of The State and their State and Federal
Constitutional right to Due Process and to protect themselves,
while linearcerated, from abuse physically, medically and
criminally.

2. The PETITIONER, John S. Kaminski, has been the victim of all
manner of abuse, since 2013, within the Department Of Corrections
and on numerous occasions has unsuccessfully tried to present
his complaints/grievances through Connecticut Civil and Criminal
court system; the Connecticut Office Of The Attorney General;
the office of the Connecticut U.S. Attorney (former) Deidre
DALY IAW 42 use 1997 (Civil Rights Of Institutionalized Person)
in 2015 as well as the Federal system via the U.S. District
Court in New Haven and the U.S. Court Of Appeals/2d Circuit.

^ In the opinion of this PETITIONER, and a£T evidenced by the out­
come and the response/non-responses, the interest and priorities
of all, was not the obvious(vulnerability and abuse of a WARD
OF THE STATE, but the technical rules of the court and the pro­
tection of the State of Connecticut and its employees.

4

4, The PETITIONER looks to this court, the United States Supreme
Court ,for a modicum of curiousity as to what fronts for FUNDAMENTAL FAIRNESS and MEANINGFUL ACCESS to the courts as he has
tried, repeatedly, to highlight his personal negative exposure
to a bastardization of the law trying to delineate CONDITIONS
OF CONFINEMENT.

^ The practice in lower courts is clearly to frustrate an incarcer
ated WARD OF THE STATE and violated his, admittedly, minimized
t

civil rights that remain, that are protected by Constitutional
Law.
It appears, as the PETITIONER has thoroughly exposed, throughout
various attempts to litigate the various grievances (detailed
in this petition on pages ,33 thru

) that there are no outlets

for an unrepresented incarcerated WARD OF THE STATE, THere are
no advocates not tainted by collusive contracts with the state
or its actors, the defendants^that are the subject of this
petition. This includes the COMMISSIONER OF CORRECTIONS, the
Office of the ATTORNEY GENERAL, and its subordinates, and definately "not" the proxy for the state, the 3d defendant listed
herein, Attorney Walter BANSLEY IV, who by contract "fronts"
as INMATE LEGAL ASSISTANCE.

j.. There is a problem in Connecticut, it is evident and now, after
exhausting every other avenue available to him, including the
Federal District Court in New Haven; the 2d Circuit Appellate
Court; and through a formal written and detailed complaint IAW
42 TJSC 1 997, (in 2015)

to the former U.S. Attorney Loretta LYNCH

and the former U.S. Attorney for Connecticut (to no avail) which
were ignored»
5

"^•The PETITIONER knows full well that review by this court is
slim at best and nearly talked himself out of filing this writ.
That was until he realized that he alone, with all of the fatal
exposure to State and Federal courts over the years he'" is ideally
positioned to bring this matter to the attention of this Constitutional court, to hopefully review it with an unbiased perspective.
3. He prays that this court will see, what he has experienced^
a serious problem in Connecticut and this District, of the
intentional Obstruction of Justice, Access To THe Court and,
in general Due Process, intentionalt^constructed by the misinter­
pretation of Connecticut Laws of IMMUNITY, its conflation of
IMMUNITY with INDEMNIFICATION and the ability of the state actors
to freely abuse the Civil Rights of their WARDS who are entrusted
to the care of the Department of Corrections and whose Civil
Rights are routinely abused by the defenadnts listed in this
petition.

% The DEFENDANTS all either personally, through surrogates, or
through language embedded in the Inmate Legal Assistance contract
assigned (gifted) to a private contractor (BANSLEY,Defendant
#3) to assume " responsibility" and "authority" of insuring that
the Civil Rights, according to "all" laws (State and Federal)
are adhered to and those rights are protected, routinely fall
back on their perception of the case precedent set in LEWIS
vs. CASEY, 518 US 343,349 (1996) in order to
project, and argue
compliance with their adherence to Constitutional mandates of
access to the courts and eluded to their protections, under
their definition of Federalism and this states independance.
6

JO. They (the defendants) promote the technical loopholes of that
case, principally the right of the states to "experiment" with
differing methods to insure that meaningful access to the courts
is maintained, especially in the matter of CONDITIONS OF CON­
FINEMENT. It is clear, as the PETITIONER has experienced, first
hand, for years, not only in State civil courts but in Federal
lower courts, that CONDITIONS OF CONFINEMENT are not arguable;
/

and that regardless of the personal capacity maters filed, total
immunity of

"All" employees of the State Of Connecticut is

Standard Operating Procedure when it comes to complaints filed
by incarcerated WARDS OF THE STATE. They are categorized,incor­
rectly as "OFFICIALS" by Connecticut Attorney General and the
courts, automatically when it comes to matters where the
PLAINTIFF is an inmate. They are considered untouchable,
sacrosanct, which makes it impossible to overcome the most basic
initial hurdle.

t\, Ct. Gen Statute 4-165 addresses IMMUNITY of "All Officials"
(not All EMPLOYEES), as misinterpreted by the CT. A/G's office
and the Connecticut courts.

IX.

Ct Gen. Statute 5-141 "Indemnifies" all employees to financial
awards achieved against them in civil matters. It does not
immunize them from Civil actions that are properly filed and
served. Apparently, since the PETITIONER is now at the U.S.
Supreme Court^.attempting to get satisfaction, an opinion and
intervention, the District and Federal Appellate court the states
misinterpretation when it concerns incarcerated complainants.

7

13 Neither court required a response to this 1983 complaint. The
PETITIONER timely filed a complaint pursuant to .42 USC 1983
on 1 /1 3

2019 in the U.S. District Court of New Haven, CT.

The complaint contained sufficient factual matters that were
plausible on its face. The PETITIONER further enumerated specific
dates, times, individuals that were involved in this action.
In this case the DISCOVERY process did not commence. The District
Court did not conduct a PRO SE Pretrial Conference for the pur­
pose of Case Management. The dismissal was arrived at without
any answer to the complaint, at all, by either of the defendants
or any assigned counsel. It was summarily dismissed.

jq-. There can be no more serious violation of Civil Rights then
to allow a totally vulnerable WARD OF THE STATE to be system­
atically abused (both civilly and criminally) and to be repeat­
edly medically assaulted by a medical contractor (UCONN HEALTH
and its subsidiaries) and to allow that same (65) year old inmate
to be carelessly handled (48) hours after spinal surgery-to
be made well aware of this, formally by complaint, and do nothing;
relying on the protections of a deliberate misinterpretation
of the law to circumvent any exposure or necessary oversight,
while focusing on technical errors made by a PR£> SE litigant/
victim.

8

PREMINARY STATEMENT, PART II
On 4/2/20 Judges SACK, PARKER and CHIN of the 2d Circuit
Appellate Court rendered their decision from which this petition
evolved. On

4/?/?r)1Q

Judge UNDERHILL, of the New Haven District

Court rendered his decision to summarily this complaint due
to his determination that the PETITIOBER had not Stated A Claim.
Both the District Court and Appellate Court had Subject Matter
Jurisdiction under 42 USC 1983.
On

01/13/19

the PETITIONER filed this complaint for violations

of his Constitutional Rights against the three defendants SEMPLE,
JEPSEN and BANSLEY.
STATEMENT OF THE CASE
-HISTORY OF THE JUDICIAL PROCESSAs related the original complaint was denied by the Appellate
Court, 2d Circuit, concurring with Judge UNDERHILLS Summary
dismissal in his court.
In the following pages the PETITIONER will fully elaborate
on how the defendants jointly and severally failed , and continue
to refuse unobstructed access to the most basic legal resources/
assistance in matters that are clearly TERMS AND CONDITIONS
OF CONFINEMENT, supported by LEWIS vs. CASEY 518 US 343, 349
(1996) and KIRBY vs. SIEGELMAN 195 F-3d 1285, 1291-92, 11th
Circuit (1997)

and deliberately and continually refuse to

validate his right to be insulated from abuse, a violation of
the 8th Amendment USC as it addresses Cruel & Unusual Punishment,
and the defendants systemic deliberate interference with his
right to access the courts and Due Process under the 14th
Amendment USC.
9

Additionally, Federal Rules Of Appellate Procedure,Rule 35(b)(1):

(A) The Appellate panel decision conflict with a decision of
the court and review/consideration by this court is therefore
necessary to secure and maintain uniformity of the courts
decision.
-and(B) The proceeding involves a question of exceptional importance.
It involves an issue of which the panel decision conflicts with
and/or ignores the authorative decisions of:
LEWIS vs. CASEY as it relates to "Meaningful" access to Legal
Legal Resources and TERMS AND CONDITIONS OF CONFINEMENT.
KIRBY vs. SIEGELMAN as it realtes to DUE PROCESS
The 14th AMENDMENT, USC as it relates to DUE PROCESS
The 8th Amendment USC as it relates to CRUEL & UNUSUAL PUNISHMENT

10

STATEMENT OF SUBJECT MATTER JURISDICTION
V. The APPELLANT/PETITIONER John S. Kaminski, an incarcerated WARD
OF TRHE STATE of Connecticut, originally filed his complaint
IAW 42 USC 1983, PRO SE, with the New Haven District Court.
on 01/13/19 .
Within that complaint was a Request For Appt. Of Counsel to
assist in preparation of a "meaningful" complaint due to its
complexities and the stature of the defendants and, as it is,
in essence a foundation of a CLASS ACTION complaint,(since it
legitimately addresses Connecticuts Violation of Due Process,
by eliminating , not solely legal reference material, but "all"
access to it by eliminating lewgal reference material and time
to access the limited resource it does maintain, in (2) loca­
tions) This material is necessary to successfully sheperdize
any complaint and review any cited positions taken by opposing
counsel and court rulings, preventing all attempts to address
a deliberate abuse of ongoing Terms & Conditions of Confinement.

In order to confuse the appearance of compliance with Federal
Law and the determinations and actions found in LEWIS vs. CASEY;
BOUNDS vs.SMITH; and more recent decisions found in KIRBY vs.
SIEGELMAN, 195 F.3d 1285, 11th Circuit (1997) which addressed
the Due Process concerns

of the U.S. Constitution, the Attorney

General of Connecticut tasked the Commissioner, Dept. Of Corr.
with the authority to contract for firms to provide Inmate Legal
Assistance

to inmates via a flat $1,000,000.00 fee. NOTE:

Amazingly, only one law firm BANSLEY, ANTHONY and BURDO (out
of 37,000 attorneys currently licensed to practic law in the
State‘S submitted a bid after reviewing the Request For Proposal.
11

3,

DEFENDANT BANSLEY/PEFENDANT #3 AS PROXY STATE ACTOR
By design, BANSLEY'S relationship with the awarder of the
contract, the Department of Corrections Commissioner, Defendant
SEMPLE (former) COOK (current) is a clear conflict of interest
when it comes to CONDITIONS'OF CONFINEMENT.
The Commissioner of the D.O.C. is empowered by State Law,
Ct. Gen. Statute 18-81, titled "Duties and Responsibilities"
by appointment of the Governor who delegates his "authority"
to the Commissioner. However he, (The Commissioner) cannot
delegate his "responsibility" of protecting the Civil Rights
of the WARDS OF THE STATE, that are entrusted to his care, by
anyone, especially a civilian contractor Yet, by Word Of
Contract he does exactly that, to a non state entity (BANSLEY)
with the signed endorsement of the Attorney General (former
and curEefat)-

The language of the contract relates the the CONTRACTOR is
responsible for insuring "his" actions comply with all state
and federal laws. That responsibility is clearly the respon­
sibility of the state and cannot be delegated, to be zealously
protected by the State Officers, specifically the Office Of
The Attorney General and the Office of the D.O.C. Commissioner.
Since that "responsibility" and "authority"

are clearly dele-

gated to a "civilian" contractor he is clearly a "proxy"
state actor, subject to the oversight of the courts. In the
opinion of the PETITIONER the state has, by contract tried to
divest itself from that responsibility, washing its hands of
of the protection of its WARDS.
12

Again, by word of contract he (BANSLEY) is left with the illegal
responsibility of insuring that the Civil Rights of the Class
of "Institutionalized Persons" are protected and that access
to the courts is assured while "Meaningful Access" to those
courts is assured and that compliance with 42 USC 1997 (Civil
Rights Of Institutionalized Persons) is guaranteed, not diverted
through technicalities and misinterpretation of all employees
of the state as "Officers".

Conditions Of Confinement ♦

e e

Will almost always be a complaint against the Department of
Corrections or one of its staff. The term is self defining.
Since the contract was specifically awarded to BANSLEY, out
of 37,000 attorney licensed to practice law in a state of 3.5
million, and it was the assigning and approving agency for the
Request For Proposal, that only BANSLEY bid on it is obviously
under the complete control of the Commissioner of Corrections.
There can be no legitimate believeable claim of "contractor
independance" when both the contractor and the D.O.C. are joined
at the hip by a $1,000,000.00 contract that gets automatically
reisued and the annual performance is done by a self audit by'
annually, by the contractor.

13

STATEMENT OF SUBJECT MATTER JURISDICTION
United States Supreme Court-

The PETITIONER, PRO SE, John S. KAMINSKI is a disabled (by
i

incident) 65 yeard’ old incarcerated WARD OF THE STATE of the
State Of Connecticut, under total control of not just the state
but all (3) defendants listed in this matter: The current (and
former) Attorney General (TONG/JEPSEN); the current (and former)
Commission Of the Dept. Of Corrections (COOK/SEMPLE); and by
word of the current long-term contractor, in the contract, a
bona fide "friend of the state" Attorney Waltl/er BANSLEY IV,
who, in the declared opinion of the PETITIONER is, in fact and
law, a "proxy" state actor, by definition of contract.
SPECIAL MASTER TO PROTECT THE IDENTIFIED CLASS
-Rules Of Civil Procedure/Class Action-Rule 23
(a) 1-4, (b) 2,(c)-(h)
X. Due to the identified complexities of the issues, not only
identified herein but through the District Court process and
that of the Appellate Court, as well as the evidence presented
of long-term abuse that he has endured at the hands of the
defendants and others made aware (although frustrated at all
levels of the State and federal courts) he feels that he has
more then substantiated the need for a "Special Master, allowed
under the Federal Rules Of Court, to investigate an apparent
goal of the defendants to frustrate access to the courts, as
a pattern, and to protect the rights of the Class as a whole.
It did so in ARIZONA with the complaints by the inmates which
led to the complaint in LEWIS vs. CASEY which led to an outcome
still in practice, successfully, in Arizona Correctional
1

A

Facilities today. Since the State, through its Attorney Generals
and States Attorneys always wants to reference that case as
its default position, the PETITIONER feels that it is only just
to treference that case as well, and its determinations and
outcome, as a baseline for.Connecticuts compliance with the
mandated protections on his rights (as well as the rights of
"all" incarcerated WARDS OF THE STATE) Civil Rights to Access
the Courts, in a "meaningful" manner (beyond filing the initial
complaint)and to insure TERMS AND CONDITIONS are not abused.

4, The PETITIONER has repeatedly asserted that it is completely
disingenious for Connecticuts OFFICERS OF THE COURT, as well
as the States default position, when it cites compliance with
LEWIS vs CASEY and the access to the court that were afforded
to Arizona's inmates in that case and not provide any of the.
same provisions still enjoyed by those inmates, to its own
inmates. To provide the feckless access to inmates currently
"available" to Connecticut would seem to be an innane position.

Connecticut has successfully, over many years, constructed an
"IRON WALL" between the courts and inmates, blatantly interfering
with access to the courts, a wall that is intentionally insur­
mountable, a barrier to any petitioner in state or federal courts
It is a barrier to "all" members of the CLASS of inmates, as
they try to protect their Civil Rights.

15

FUNDAMENTAL FAIRNESS

1.

The PETITIONER herein asserts that, the kind and degree of
objectivity and fair procedure has not been practiced, in legal
proceedings, that he has tried to litigate, meaningfully, that
are necessary to satisfy the basic tenets of DUE PROCESS. The
/

courts, and court staff/oficers, as well as the Connecticut
Attorney General, the Department of Corrections Commissioner,
and, through its irresponsible oversight of its contractor (
{Atorney Walter BANSLEY IV) and a "gifted", non-supervised
deficient contract with BANSLEY, are not insuring that inmates,
vulnerable WARDS OF THE STATE, are being treated in a fundamen­
tally civilized and just manner and, as a result, their Civil
Rights, according to the United States Constitution are
regularly, systematically and deliberately abused.

5., The history of this PETITIONERS exposure, through numerous
contacts

with the Dept. Of Corrections, its courts as well

as the U.S. District Courts, and U.S. Appellate Court, stands
as evidence of the Deliberate Obstruction to those courts and
the inability to pursue "meaningful" access and arguments.

16

PERSONAL STANDING & REQUEST FOR CLASS ACTION CERTIFICATION

|, This PETITIONER is ideally situated and clearly has considerable
standing to bring this complaint to the USDC, USCA and now looks
to the oversight and review of the United States Supreme Court.
All are equally positioned to act , with requisite jurisdiction
to protect the rights of the PETITIONER, as well as the CLASS
he is a member of, to:
(1) Address the PETITIONERS complaint
(2) Investigate the facts as presented
(3) Identify this complaint as the basis of a bona fide CLASS
Action, in accordance with Title 28-1715 and FRAPRULE OF
CER CERTIFICATION, (a) Prerequisites 1-4 and (b)(1)(A&B), (2)
and (3)(g)(i) Appointment Of Counsel and Interim Counsel
-andOrder Counsel to act as a Special Master, to protect the rights
of the Class, that the PETITIONER is not equipped to do.
-and-

i

Order this matter remanded back to U.S. District Court, New
Haven in order to investigate the substantial proof that the
PETITIONER has brought forth herein that affects TERMS & CONDI­
TIONS OF CONFINEMENT and CRIMINAL ACTS that the PETITIONERS
was the victim of, that the DEFENDANTS were made aware of, by
formal written complaints and state court filings.

17

STATEMENT OF THE CASE *Tf

/. The PETITIONER, as a Condition Of Incarceration, has, by law
greatly reduced Civil Rights, as a result of this incarceration.
It should go, without saying, that not "all" of his rights are
forfeited. The DEFENDANTS, apparently belieS^otherwise-as the
following narrative will clarify.
In recent correspondence to the relatively new Director Of
Medical Services (Dr. BYRON KENNEDY) the PETITIONER notified
him that for the past (8) years he has been treated as nothing
more then a "Breathing cadaver". This fact was clearly emphasized
in that letter.
__CRUEL & UNUSUAL PUNISHMENT
In this matter, the PETITIONER has endured years of neglect,
Cruel & Unusual Punishment and a violation of "DUE PROCESS"
as it related to the expectation of Fundamental Fairness. In
Connecticut there is no advocate to protect the Civil Rights
of inmates. Not only does this complaint include the DEFENDANTS
but it extends to the ACLU/David Wright.
To the point, as an incarcerated WARD OF THE STATE^inmates are
always to be zealously protected from blatant abuse and exploi­
tation and the TERMS & CONDITIONS OF CONFINEMENT are to be
vigorously protected, (especially for medical treatment,
procedures, and the quality of (that treatment) and therefore
are 100% dependant on the state, through its actors, to protect

2.

them since they have no input for that treatment.
The PETITIONER asserts that due to the rea(l]Qd incestuous
alliance between the defendants: DOC Commissioner; Ct. Attorney
General; and a co-conspiratorial contractor for Inmate Legal
18

Assistance Attorney Walter BANSLEY IV, there are absolutely
"no safeguards" or protections available to inmates (no advocate)
and that this is by deliberate design.
-It affects all person(s) in the CLASS similarly situated
-It has gone on for years and continues with no end in sight
-Its priority is not the CLASS but all "state employees" (that
the CT. Attorney General regularly asserts are 100% immune
aand protected, according to his interpretation of CGS 4-165
athe 11th Amendment, P.S.C.

In this Petition, beginning with Page # -^3 the PETITIONER has
inserted a "First Person" illiteration of his history of personal
exposure to the Star Chamber cabal that he has experienced,
since the very first instance of abuse, in 2013, an accident
on Route #9 in Connecticut, in which the driver, Correctional
Officer FRIEDMAN fell asleep behind the wheel, after being
allowed to work (3) successive (8) hour shifts in a row, in
order to enhance his pension prior to his pending retirement.

19

DELIBERATE OBSTRUCTION OF DUE PROCESS/ACCESS TO THE COURT
-Fourteenth Amendment, U.S. Constitution

i-,

Although lower federal courts have ignored the underlying problem
of this complaint, as pointed out by the PETITIONER in his "first
person" affidavit within this Petition/and have taken the literal
definition of the tenets of Due Process to avoid looking beyond
the technicalities of the law-the PETITIONER asks this court
to go beyond the literal and look at the extreme lengths the
DEFENDANTS always must resort to in order to defeat a PRO SE
Complainant/Victim who has had to endure years of physical and
medical abuse at the hands of Corrections Staff and Medical
staff, clearly aided by the courts automatic default position
that "all" state staff and members of UCONN Health Center are
immune from prosecution of a civil suit simply based on the
fact that:
-They are employed by the state
-The PLAINTIFF is an inmate (and therefore has no rights)

^ Compound the actual physical abuse with a coordinated and
completely choreographed cover-up, destruction of video evidence
(videos) and a deliberately misdirected medical diagnosis, in
order to protect the state and confuse the patient/victim—this
must surely extend the barriers normally established in a Due
Process complaint.
£

As highlighted in the "FOREWORD" of this Petition...
Is it the technicalities that are of paramount importance or
is it the protection of the PETITIONERS civil rights and physical
safety that is the courts priority as it should be the DEFEND­
ED

ANTS?

•-£ As stated in KIRBY vs. SIEGELMAN, cited as 195 F.3d 1285 (11th
Circuit 1999) as part of thsi cases controversy was the acknow~v
ledgement Article III A party must suffer an injury to satisfy
j

Article III. A medical benefit imposes a typical hardship on
the inmate and the defendants have clearly ignored that hardship.

g

A prisoner is a WARD OF THE STATE and is not wholly stripped
of Constitutional protections when he is imprisoned for a crime
WOLFF 418 U.S. at 555-56, 94 S.Ct at 2974-75.

21

k

The responsibility to protect the CIVIL and CRIMINAL rights
of Incarcerated WARDS OF THE STATE lies strictly with the Office
of the Connecticut Attorney General, formerly §eorge JEPSEN
(currently William TONG).

T

Connecticut Statutory Law, CGS 4-165, as interpreted by the
Attorney General and his staff, and supported by the Office
of the Chief States Attorney as well as Connecticut courts is
reegularly misused to protect state employees from scrutiny
of Criminal complaints and Civil Rights abuses of those wards,
as a standard policy and parctice,. of the most vulnerable
citizens, incarcerated WARDS OF THE STATE, leaving the entire
"class" exposed to abuse of their physical person and regular
abuse of their State And Federal Constitutional Civil Rights.

3-

Since 2012, the PETITIONER, forced to attempt to protect himself
from abuse, injuries and resultant medical abuse, has filed
a number of civil and criminal complaints, PRO SE, as he had
no alternative and there is no advocate to speak for him, nor
the class as a whole. All were defended by the staff of the
Office Of The Attorney General, with no thought of protecting
him as a WARD OF THE STATE.

The following history is provided...

22

CRUEL AND UNUSUAL PUNISHMENT
-Eighth Amendment U.S. ConstitutionPunishment of a convicted person...in a manner that fails to
meet minimal contemporary standards of decency...is forbidden
by the 8th Amendment.
Supporting Affidavit for 8th Amendment Claim

The following is a "first person" statement/affidavit, submitted
by the PETITIONER, John S. Kaminski (all cited in condensed
detail) in the filing of this 1983 Complaint, in both the USDC
liin New Haven and the USCA, 2d District, New York.
I,

April 2012 Macdougall Corr. Inst, Suffield, CT
I woke up on a Monday morning in mid-April 2012 to go to work
and I could not stand up without intense lower back pain. I
was whel chaired into the medical facility. After an injection
of Baclofin, a muscle relaxer had no affect I was admitted to
the infirmary. I was there for about (7) days with no improvement
I was given a wheeled walker to try and ambulate down a short
hallway. I did so but the pain was intense. When I was returned
to my bed I was told that all of my property had been packed
and I was being transferred to another facility (Corrigan C.I.)
in Montville CT.Upon arrival, after spending two (2) hours in
a Holding Cell in excruciating pain I was moved to a cell
in General Population.

!

23
:

MAY 2012
Two (2) weeks after arriving at Corrigan C.I. I was ordered
to pack up all of my property and was transferred to Hartford
County Correctional. I had not seen anyone in medical at Corrigan
yet. I stayed at Hartford C.C.

for (1) week. During that time

I was transported to UCONN Health Center, for what I learned
was an MRI which could not be completed due to a severe episode
of claustrophobia. I was returned to Hartford C.C. where I
remained for a week. Then I was transoported, again with all
of my property,, to Corrigan. C.I., went through processing again
and was returned to the exact same cell in General Population.
Eventually, after an observant Correctional Officer noticed
that I could not come out of my cell to get my food tray or
to even shower for two (2) weeks (I bathed at the sink in my
cell) medical was finally made aware of my medical condition
and I was moved to a Unit known as PHU (Preferred Housing Unit),
into a handicapped cell adjacent to the Medical Unit.
I was seen by medical and another MRI was scheduled and this
time an anti-anxiety medication was ordered to get through the
claustrophobia.

That transportation was provided by Correctional Officer
FRIEDMAN and a second escorting officer in late 2012.
this transportation resulted in the Civil complaint titled
KAMINSKI vs. FRIEDMAN et al, CT. Docket § 13-5018219.

Through my investigation and use of the Freedom Of Information
statute I learned that Officer FRIEDMAN had worked a double
(8) hour shift, back to back the day before (8:00 AM thru mid;

night)preseumably left the building, only to return at 5:00

AM the floowing morning (five hours off) to transport me to
UCONN Health Center for a 9:00 AM appointment. We left Corrigan
at 6:45 AM.
While enroute, at the junction of Route 72 and Route #9, at
Exit 28 in New Britain, at 7:15 AM, while sitting wide awake
in a back bench, separated by a partition from the driver and
escort officer I watched first the escorting officer fall asleep
then the driver (FRIEDMAN) fall asleep while driving at 60 MPH.
For those few seconds the vehicle strayed off of the road, into
the swell between the two routes, struck a curb and gaurdrail
which caused it to ldft up off of its left wheel onto the right
two wheels. FRIEDMAN came to, managed to regain control of the
vehicleand somehow put it down on all four tires. The vehicle
came down very hard on the left. Sitting in the back bench,
fully restrained with handcuffs, belly and ankle chains and
"CHUBB CUFFED" with no seatbelt, when it came down,I was thrown
in the seat onto the bench and the left side of my head struck
the sheet metal wall, snapping my neck hard to the right. Ifelt
okay and after changing a left rear blown tire that was to take
over an hour due to a bent lug on the axel, we continued on
to UCONN Health for the scheduled MRI.
THE MRI revealed that I had severe damage to the C-3 and C-4
disc area and I was told by Neurosurgical Phy. Asst. KOTLER
that I should not make any sudden moves as I could become
paralyzed as a result of the condition of the discs. I was told
leter that the damage to C-3 and C-4 was "pre-existing and was
not a result of the vehicle accident.
The surgery on my neck was made a priority, the lumbar problem
<r

was put off until November 2014.
25

In 2013 I filed the suit against FRIEDMAN. The cervical surgery
was completed in 2013, I was able to mend at Corrigan for
about (6) months before I was transferred to Osborn C.I. in
Somers, CT. Once there I came across an inmate that hed received
a Christmas card from an attorney in Hartford, CT (Atty David
POIROT) and I wrote to him, sending him a copy of the PRO SE
complaint I had submitted to New Britain Superior Court. He
came in and had me sign an agrement, filed a appearance, and
within (3) months amended the entire complaint and changed to
defendants from Officer FRIEDMAN et al to a complaint allowed
to be filed against the State of Connecticut under CT. Gen.
Statute 52-556 which allows a person to sue the state directly
anytime there is an accident involving a state vehicle. This
is only allowed when there is fault because of the vehicle,
owned by the State, with injuries. POIROT filed (6) inches of
o>

motions to change this lawsuit from a person suit to an official
suit against the state, and then, without notice, over the
telephone, withdrew his representation, leaving me to try to
litigate a suit I knew nothing about, that was invalid anyway,
as it turned out months later in court when it was dismissed
in its entirety by Judge SWIENTON, because it was invalid.
The problem was not with the vehicle or its functionality. The
problem was that the driver was not fit to drive and his
supervisor knew it.
My safety was not a consideration, padding the drivers pending
retirement pension with overtime hours was the priority.

26

3.

November 16, 2014
KAMINSKI vs. ALEXANDER/COLON #
Suit filed for ASSAULT AND BATTERY AND FELONY ABUSE OF ELDERLY
During transportation from UCONN Health CEnter to Osborn Corr.
Inst in Somers, Connecticut, (2) days after major lumbar spinal
surgery^I was put into complete shackles, waist and belly as
well as CHIBB cuffs for a return to Osborn C.I.. The transporting
officer, C/Oficer ALEXANDER^after completely tightening every
device, including across the area where there were (13) staples
in my spine^, took me to his veh^le, a subcompact 2014 Chevrolet
NOVA four door that had a security shield between the front seat
and back seat. I told him I could not get into the back seat
after surgery but he told me that it was the vehicle available
and I had to get into it. I sat down on the edge of the seat
and when trying to maneuver into the vehicle, because of m,y
spine,I
fell backwards into the seat, with my legs still on
/
the asphalt outside. ALEXANDERS solution was to go to the other
door and, puli m^ by the shirt at my shoulders, into the seat,
across the waist chain at my back. After pulling me in he lifted
my legs and put them in so that I was in a fetal position on
my back. I was transported that way, unseatbelted.all the way
back to Osborn C.I. Upon arrival the process was more or less
reversed-my feet were placed outside and I was pulled into an
upright seated position by my shirt front, and pulled from the
car to a standing positio^n where I was forced to walk inside
the reception trailer. From there I was wheeled to the medical
wing in a wheelchair that was broken and had no footrests, futher
straining the delicate work done to my spine (2) days before.
27

After spending about (£>) days in the facility hospital ward,
on December 3d I wrote a written detailed complaint to the Unit
Manager, CAPT. Jeanette MALDONADO and asked what the protocol
was to file a formal complaint against ALEXANBDER and the Shift
Commander bn the 16th when ALEXANDER was assigned to transport
(Capt. COLON)»In her response, she chastized me for writing
to her on a piece of paper and not on an INMATE REQUEST FORM
and advised me that I had to contact the State Police myself.
That response was dated December 10th. I immediately composed
a formal complaint to the CT. State Police in Middletown, CT
and copied in the WARDEN EDWIN MALDONADO and D/WARDEN WRIGHT.,
as well as Commissioner SEMPLE. I never received any response
from MALDONADO or WRIGHT. On January 7th I was contacted by
St.Police Det. Sgt GERSHOWITZ when I was called to D/W WRIGHTS
office set. and was introduced to GERSHOWITZ who was sitting in
WRIGHTS inner office. In the outer office WRIGHT and the
facility Operations Manager Capt. VANOUDENHOVE were seated at
a round table.I was interviewed by GERSHOWITZ for (15) minutes,
"AFTER" he had me acknowledge my 5th Amendment warning. He
told me that I had the right to file a civil complaint. I told
him I intended to do that but this was a criminal complaint.
I was told that he would get back to me.
As we walked out WRIGHT asked GERSHOWITZ if it was resolved.
GERSHOWITZ did not verbally reply only shook his head in the
negative. Weeks later I received a written determination from
GERSHOWITZ stating that he would not be taking any action.

28

4,

KAMINSKI vs. SEMPLE # Vi-S'0

(

£o\n.

)

•OiiVo V
Due to hwta I pereceived was going to be a cover up, besides
writing to the State Police I also wrote to Deputy Chief States
Attorney LEONARD BOYLE at his office in Rocky Hill, CT. He
responded that "HE" had tasked his subordinate, Sr. States
Attorney MATTHEW GEDANSKY at the Tolland Court District with
following up CXtook to_. mean investigate) my complaint.
I also filed a motion, with AAG DeAnn VARUNES, who was represent­
ing the state in another matter, through the Judge Robert YOUNG,
to secure the video of the transportation at UCONN Health and
at Osborn C.I. NOTE: On January 7th, just before my meeting
with GERSHOWITZ I had a video appearance with YOUNG and VARUNES.
YOUNG ordered her (as an Officer Of The Court and an Asst. A/G
to secure the video, and it (the order) was later confirmed
in writing by Judge YOUNG, (the video, according to everyone
was (erased) after (30) days-even though a brand new hard drive
system had, in July of 2014 been installed to replaced the old
VHS tape system. This was in complete defiance of the order
in TYE vs. BUTKIEWICUS, 3:13 cv 747 pertaining to SPOLIATION
and the D.O.C.s own directive that resulted from that order

k£T

This order was put in place, directly to, none other then WARDEN
Edwin MALDONADO. Apparently a Federal Judges Court Order has
no weight in Connecticut with either MALDONADO, the D.O.C. or
the Officers Of The Connecticut courts. They comply if they
want to. The defendants listed in the subsequent state suit
were absolved from any responsibility due to "QUALIFIED IMMUNITY"

29

As a reminder to this court, GERSHOWITZ was tasked with investi­
gating after I lodged a formal written complaint

with his

superiors, in his Middletown headquarters. States Attorney
GEDANSKY was tasked with investigating my written complaint
to his superior Deputy Chief States Atty LEONARD BOYLE, by BOYLE.
I have that confirmed in writing from both superiors.
Under the circumstances, and due to my custody status neither
GERSHOWITZ or GEDANSKY enjoy any level of immunity. Neither
does Warden MALDONADO, D/W WRIGHT or Unit Manager Jeanette
MALDONADO. As a WARD OF THE STATE, as I understand the law I
am entitled to protection, just as is anyone who is formally
taken into custody. Both cases, (vs. Alexander and SEMPLE were
"Companionized" (judge Morgans term) in New Britain Superior
Court due to her agrement that "all" defendants enjoyed IMMUNITYT
Citing CGS 4-165, conflating it with CGS 5-141.and were dismissed

2017-KAMINSKI vs. POIROT #17-5049290
While at Osborn, C.I •

r

in Somers, CT I wrote a lawyer (one of

dozens) to ask his assistance in representing me in the DOC
matters. This was Atty David POIROT of Hartford. He accepted
the lawsuit that I had submitted, came in, discussed it with
me, had me sign a retainer agreement. Then after a few months,
without consultation, changed it to list the State Of Connect­
icut as the sole defendant (this was tjp'e accident complaint
against FRIEDMAN et al) and filed two inches of motions to make
this a matter of record. Within days of completing this transi­
tion and the amendments to the complaint, and after the state
contracted with a law firm in Hartford (COONEY, SCULLY and
DOWLING, he withdrew his services, over the phone. The case,
30

(KAMINSKI vs. FRIEDMAN, as amended was subsequently tried by
me in New Britain Superior Court and was dismissed.
According to Judge SWIENTON I had no argument against the "STATE"

As a result I filed a malpractice complaint against POIROT in
Hartford Superior Court. It was quickly dismissed due to a (2)
year Statute Of Limitations issue that applies in malpractice
suits against attorneys.

2017-KAMINSKI vs. UCONN HEALTH et al(Correctional Managed Health

Cs.

Care-subs.of UCHC & X-SPINE Corp. CT § 17-5018204

To recover for damages after device installed by UCHC/CMHC on
November 14, 2014 failed (broken titanium pedicle screw (which
resulted in a resurgery in 2016) The device was manufactured
by X-Spine Corp., of Miamisburg, Ohio. In a written dismissal
Judge SWIENTON cited "IMMUNITY" for UCHC and CMHC and dismissed
it against X-SPINE due to a lack ,of standing as she cited her
authority according to a Connecticut case BiFlock vs. Philip
Morris Inc., 324 Conn 402, 434 (2016). The case, for the state
(UCHC/CMHC) was again represented by Asst. A/General Steven
BARRY. X-SPINE was represented by the firm of COHN, Birnbaum
and Shea of 100 Pearl Street, Hartford

ALSO FILED, in FEDERAL COURT:
r

X

Kaminski vs. Colon et al # 3:18cv02099 to address abuse and
cover up in Kaminski vs. ALEXANDER. Dismissed due to failure
to State A Claim (immunity).
31

and...
KAMINSKI vs ONIYUKE et al 3:19cv 00058
Medical Malpractice (ONIYUKE) and Product Liability (X-Spine)
Dismissed

END OF FIRST PERSON AFFIDAVIT

John SySZJsL minski
Petijtion^r

32

REASONS FOR GRANTING THE WRIT
I) The U.S. Congress enacted 42 USC 1983 to enforce provisions
of the 14th Amendment against those who carry a badge of
authority of a state and.represent it in some capacity, whether
they act in accordance with their authority or abuse that auth­
ority. HAFER vs. MELO 502 U.S. 21,28,116 L.Ed 2d 301 S.Ct 358
(1991) The PETITIONER asserts that it was also meant to protect
victims of other abuses such as the 8th and 11th Amendment.
"Color Of Law Means Pretense Of Law"

II)

The State Of Connecticut, by Statute 5-141 has chosen to

provide an "employee benefit" to placate the AFSCME' union, to
"indemnify" Correctional Employees and exempt them from
"financial exposure" in any lawsuit. Additionally, as the PETIT_
IONER has clearly identified, the Office of the CT. Attorney
General has chosen, as verified by the representation repeatedly
of the defendants, in a numberof Civil matters brought to the
State courts, by this PETITIONER, by several Asst. A/G's (PARILLE'
VARUNES and primarily AAG Steven M BARRY) that the priority
of the State "is not" incarcerated WARDS OF THE STATE but that
of the employe-^ in actuality, the states interests.
A waiver is inferred when the State has made a'General Appearance
and defended the lawsuit with representation by the State.
Garrity vs. Sununu 752 F.2d 727-728 (1st Circuit)

III) In doing so, the 11th Amendment pertaining to any protected
imunity is waived according to a history of federal decisions,
including: Hankins vs. Fennel 964 F.2d 653, USCA 8th District,
Missouri (1992).
In this decision this court ruled that the state had waived
33

its immunity, to the extent that it had "voluntarily" agreed
to "indemnify" its employees, as an employee benefit (as an
employee benefit CGS 5-141^ especially when the state automatically steps in to represent them (as Connecticut does).

A waiver is inferred when the state has made a General Appearance
and defended the lawsuit with representation by the state.
Garrity vs. Sununu 752 F.2d 727-728 1st Circuit.

As to the horrific abuse that is, in the PETITIONERS opinion,
axiomatic, behavior that hs© has clearly supported within this
Writ, as well as his original complaint at the District Court
and followed by his submission to the U.S. Court Of Appeals,
2d Circvuit, to believe that this conduct is a wholly isolated
situation cannot be realistically supported with facts.

IV) Compounding this is the clearly deceptive, misleading and,
in the PETITIONERS opinion^illegal and unconstitutional contract
issue by the defendants, #1-SEMPLE and #2-JEPSEN to defendant
#3-BANSLEY to present a false front of Inmate Legal Assistance
when, in reality, it is a feckless, necessary cog, to misdirect
and circumvent Access To The Court by installing a Contractor
(BANSLEY) who is totally loyal and controlled by the assignor
of the contract, the Commissioner of the Dept. Of Corrections,
and the Connecticut Attorney General, by means of repeatedly
awarding a $1,000,000.00 self-audited, no-bid contract to
WALTER BANSLEY IV. THis is done in a state of 3,500,000 people
that has over 37,000 practicing licensed attorneys in it,not
to mention Law Schools, such as the Jerome Franks Law Clinie.
34

at Yale University in New Haven. NOTE: Jerome Franks is never
invited to bid and refuses to submit a bid.The PETITIONER could,
but will not, speculate as to the reasons for this.
V) Additionally, the Cruel & Unusual Punishment, routinely and
repeatedly inflicted on the PETITIONER, over a number of years,
resulting in apparently permanent disabling spinal damage, that
is evident at preesent, and the pattern and ability to conceal
the abuse and frustrate any complaint by sheer manipulation
of the law combined with blatant cooperation of Officer of the
Court who are, by law, to be independant entities, not a member
of a cabal to form a legitimate STAR CHAMBER, cannot be accepted
to be an isolated one off scenario.

VI) Deliberate Indifference to the "serious" medical needs of
an incarcerated WARD OF THE STATE is Cruel & Unusual Punishment
and is forbidden by the 8th Amendment U.S.C.
Both objective and subjective definitions are met.
Estelle vs. Gamble 429 US 97,104-105, 97 S.Ct 285,291 50 L.Ed
2d 251,260 (1976)

VII) As supported herein and at lower courts, in the PETITIONERS
opinion, he has more than fortified his argument for a review
of this Petition For A Writ Of Certeriori under Supreme Court
rules Part III,Jurisdiction Rule 10(a) which states in part:
-A United States Court Of Appeals (in this 2d Circuit case)
has entered a decision (US District Court, New Haven, CT) that
is in conflict with the decisions of other USCA...on the same
L
important mater.

35

Rule 10(c): a District Court (New Haven) and a US Court of
Areals (2d Circuit) has decided a question of Federal law, that
has not been, but should be, settled by this court.
Alsi, in this matter, the District Court summarily dismissed
the original complaint filed, due to its position that the
PETITIONER "did not state a claim" that was not impeded by
levels of immunity of the listed defendants.
According to decisions cited herein this position is clearly
misguided as the actions taken by the CT Attorney General and
its staff, to represent the defendants previous matters and
the States Attorney in this matter, and simultaneously indem­
nifying them, according to State Statute CGS 5-141

and, again

in the opinion of the PETITIONER, constitutionally misrep­
resenting another state statute CGS 4 165

confusing immunity

with indeminfication completely voids this stance.

VIII) Also in the state Civil Suits, the DOC complicated the
matters of Kaminski vs ALEXANDER and Kaminski vs. Semple by
refusing to comply with their own Correctional Directive 6.5
(Control Of Physical Evidence and its attachment Form RC 050
(Revised 8/20/14) directing a (4) year retention of Security
Surveillance records (video) upon notification of an incidentSee Tye vs Butkiewicus et al 3:13cv 747 (JCH) on 5/23/13
concerning spoliation. This case involved Warden Edwin Maldonado
and

and AAG DeAnn Varunes, with a

Hall.

36

sanction by Judge

To grant immunity to "all" state employees from official
sanctions and oversight by the courts is unconstitutional,
regardless of the State Statute (4-165) cited by the state and
its legal representatives in its courts and in federal courts,
and supported blindly in those courts by its judges. This creates
an atmosphere of abuse.
If the courts did not, without reservation, support blanket
immunity for the defendants in this matter, ba&ed on a belief
in an 11th Amendment posture, and required the normal pre-trial
response from the defendants and a subsequent answer to be filed
by the PETITIONER^the issues presented would have been made
clear and the immunity from litigation "after" representation
by the state and automatic

immunization by CSG 4-165 would

have been disallowed.

As it is now an atmosphere propogating abuse is evident. This
/

atitude was the foundation for long term abuse of Inmates at
the Connecticut Valley Hospital in Middletown by staff, which
only came to light because one inmate had a family member pressure
the state through the advocacy of a private attorney.

The PETITIONER has clearly laid out his argument for harm done
to him as a pattern of State actors conduct, over years, as
well as permanent injury. He has laid out his supportive facts
for appojiintment of a Special Master with responsibilities
similar to that of the appointed Special Master in Lewis vs.
Casey to resolve that case, far less severe then in Connecticut
prisons currently.
38

^

The PETITIONER has also tried to support his request for Class
Action Recognition by this court according to Federal Guidelines
and Rules Of Court as well as the failure by the U.S. Attorney
to intervene upon receipt of a formal written 42 USC 1997
complaint. In order to protect the Constitutional Civil Rights
of the PETITIONER and other inmates also WARDS OF THE STATE
that are similarly situated the PETITIONER asks this court to
remand this matter back^ to U.S. District Court, to correct
the unconstitutional actions of the defendants and order a
Special Master to oversee the corrections the PETITIONER sees
as necessary under the law, appoint counsel to the PETITIONER
to litigate the abuse he has endured over the years and designate
a CLASS ACTION in this matter to address the abuses of the
inmate population, over the years due to the rep£tition of total
immunity arguments by the state and its actors.

The PETITIONER,

John

24

MacDougall (Zorr. Inst.
/

1153 East/St/ South
Suffieldt JZT 06080

39

